No. 20-1088

 

 

IN THE

Supreme Court of the Hnited States

CARSON ET AL.,

Petitioners,
v.

A. PENDER MAKIN, in her official capacity as
Commissioner of the Maine Department of Education,

Respondent.

On Petition for Writ of Certiorari
to the United States Court of Appeals
for the First Circuit

BRIEF FOR AMICI CURIAE
AMERICANS FOR PROSPERITY FOUNDATION AND
YES. EVERY KID.

IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,512 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 9, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
